No. 19-7

 

 

IN THE

Supreme Court of the United States

SEILA Law LLC,
PETITIONER

v.

CONSUMER FINANCIAL PROTECTION BUREAU,
RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF FOR SEPARATION OF POWERS
SCHOLARS AS AMICI CURIAE IN SUPPORT
OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,867 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 29, 2019.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
